WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-352

Jason Gonzales |Michael J. Madigan, et al.
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unleas one is requested by
the Court.

Please check the appropriate box:
© Iam filing this waiver on behalf of all respondents.

® Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Silvana Tabares

Please check the appropriate box:

© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Iam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: ae deat 7%
Date: 9/8/21

(ype or print) Name Richard J. Prendergast
© mr. © Ms. © Mrs, © Miss

Firm Richard J. Prendergast, Ltd.

Address 111 W. Washington St., Suite 1100

City & State Chicago, Illinois Zip 60602
Phone (312) 641-0881 Email rprendergast@rjpltd.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Anthony J. Peraica
Stephen F. Boulton
Jennifer M. Hill
